         United States Government
   National Labor Relations Board
            Office of Inspector General




SEMIANNUAL

REPORT
october 1, 2011 – march 31, 2012




                  NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................9

Legislation, Regulations and Policy............................................. 11

Liaison Activities............................................................................ 12

Information Required by the Act................................................ 13

Reports by Subject Matter............................................................ 14

Appendix......................................................................................... 17
EXECUTIVE
SUMMARY

I
     I hereby submit this Semiannual Report for the period October 1,
     2011 – March 31, 2012. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of the Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued two audit
reports, conducted the annual review required by the Federal Information
Security Management Act, issued a memorandum identifying the Agency’s
top management and performance challenges, and issued a memorandum
documenting our review of the Agency’s reporting under the Improper
Payments Information Act. As a result of the audit program, we identified
$113,120 in questioned costs. In the investigation program, the Office of
Inspector General processed 142 contacts, initiated 7 cases, and closed 3
cases. Our investigative efforts resulted in a conviction, two separations,
a counseling, and alternative discipline in lieu of two suspensions. Two
matters were referred for prosecution.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                            David Berry
                                            Inspector General
                                            April 30, 2012




                                             NLRB Semiannual report           1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor relations
    law of the United States, and its provisions generally apply to private
    sector enterprises engaged in, or to activities affecting, interstate commerce.
    NLRB jurisdiction includes the U.S. Postal Service (other government entities,
    railroads, and airlines are not within NLRB’s jurisdiction).


The NLRB seeks to serve the public
interest by reducing interruptions
in commerce caused by industrial
strife. It does this by providing
orderly processes for protecting
and implementing the respective
rights of employees, employers,
and unions in their relations with
one another. The NLRB has two
principal functions: (1) to determine
and implement, through secret ballot
elections, the free democratic choice
by employees as to whether they                judicial body in deciding cases
wish to be represented by a union              on formal records. The General
in dealing with their employers and,           Counsel investigates and prosecutes
if so, by which union; and (2) to              unfair labor practices before
prevent and remedy unlawful acts,              administrative law judges, whose
called unfair labor practices, by              decisions may be appealed to the
either employers or unions.                    Board, and, on behalf of the Board,
NLRB authority is divided by law               conducts secret ballot elections to
and delegation. The five-member                determine whether employees wish
Board primarily acts as a quasi-               to be represented by a union.

2    NLRB Semiannual report
                                                               Standing left to right:
                                                    Sharon Block and Terence Flynn
                                                                 Seated left to right:
                                                   Brian Hayes, Mark Gaston Pearce
                                                                 and Richard Griffin




The Board consists of the             that position during the reporting
Chairman and four Members who         period.
are appointed by the President with   The NLRB’s Fiscal Year (FY) 2012
the advice and consent of the         appropriation is $278,833,000 less a
Senate. Board Members serve           0.189 percent rescission.
staggered terms of 5 years each.
The General Counsel is also           NLRB Headquarters is located at
appointed by the President with the   1099 14th Street, NW, Washington,
advice and consent of the Senate      DC. In addition to the Headquarters
and serves a term of 4 years.         building, employees are located
                                      in 51 field offices throughout the
At the beginning of this reporting    country. Three satellite offices for
period, the Board consisted of        the administrative law judges are
Chairman Mark Gaston Pearce and       located in Atlanta, San Francisco,
Members Craig Becker and Brian        and New York City. Since October
Hayes. On January 3, 2012, Member     2, 2000, field offices have included
Becker’s appointment ended. On        32 Regional Offices, 16 Resident
January 4, 2012, the White House      Offices, and 3 Subregional Offices.
announced recess appointments of
Sharon Block, Terence Flynn, and      Additional information about
Richard Griffin to Board Member       the NLRB can be found at
positions. Acting General Counsel     www.NLRB.gov.
Lafe Solomon continued to serve in

                                          NLRB Semiannual report                         3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to the
    1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
The OIG received an allocation of
$1,058,700 for FY 2012 operations,
of which $191,800 was for contract
services. In addition to the Inspector
General, the OIG consists of
a Counsel/Assistant Inspector
General for Investigations, an
Assistant Inspector General for
Audits, three auditors, and a staff
assistant.




4    NLRB Semiannual report
AUDIT
program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued two audit reports,
   conducted the annual review required by the Federal Information
   Security Management Act, issued a memorandum identifying the
   Agency’s top management and performance challenges, and reported
   to Congress and the Office of Management and Budget (OMB)
   documenting our review of the Agency’s reporting under the Improper
   Payments Information Act. The audit of the NLRB’s FY 2011 Financial
   Statements identified $113,120 in questioned costs.


Reports Issued                             noncompliance with laws and
We issued Audit Report OIG-F-16-           regulations were identified:
12-01, Audit of the NLRB Fiscal            • The Agency did not adhere to
Year 2011 Financial Statements,              the recording statute or the bona
on December 14, 2011. The audit,             fide needs rule when it obligated
performed by an independent                  $113,120 without a binding
public accounting firm, found that           agreement for information
the NLRB’s FY 2011 Financial                 technology advisory services using
Statements were fairly stated, and           FY 2011 funds for services that
no material weaknesses in controls           were not received until FY 2012.
over financial reporting were
                                           • The Agency accepted and paid for
identified. Although no material
                                             telecommunication services after
weaknesses were identified, two
                                             the period of performance expired
instances involving noncompliance
                                             without exercising the option for
with laws and regulations were
                                             the next period of performance.
reported.
                                           The Management Letter contained
In a Management Letter issued
                                           recommendations to address
as part of the financial statement
                                           the instances of noncompliance
audit process, the following

                                                NLRB Semiannual report           5
with laws and regulations. The         Employment Opportunity did not
Management Letter also provided        consistently meet the regulatory
information on the status of prior     time limits associated with the
years recommendations.                 processing and investigation of
In their comments to the               complaints. After comparing the
Management Letter, the Chairman        case files to the case processing
and Acting General Counsel stated      database, we concluded that the data
that they agreed with the findings     was not reliable and that there was
and recommendations and they           not sufficient control procedures in
identified actions that have been      place to assure database accuracy/
taken, as well as those that remain    completeness given the errors and
to be completed, on the current and    missing cases identified. We also
prior years recommendations.           found errors in the reports issued to
                                       the Equal Employment Opportunity
We issued Audit Report OIG-AMR-        Commission. We made several
67-12-01, Internal Controls in the     recommendations to improve the
Office of Equal Employment             internal control environment.
Opportunity, on January 9,
2012. The audit was conducted          Based on our review of the
to determine whether controls          investigative procedures,
in the NLRB’s Office of Equal          interviews with Agency personnel,
Employment Opportunity were            and comments of the Equal
designed and implemented in a          Employment Opportunity
manner that ensures that its mission   Commission’s Office of Federal
is accomplished. The scope of our      Operations, we recommended that
review was the 41 cases pending        the Office of Equal Employment
in the NLRB’s equal employment         Opportunity develop new
opportunity process during FY 2010.    investigative procedures that
                                       provide for the “prompt, fair
We found that the Office of            and impartial processing” of
Equal Employment Opportunity           complaints in accordance with the
did not have sufficient internal       Equal Employment Opportunity
controls. The Office of Equal          Commission’s regulations and
Employment Opportunity did             policies.
not have documented procedures
related to the accuracy or quality     The Office of Equal Employment
of its investigative work or for       Opportunity provided comments
the reports that are issued to the     to the draft report stating general
Equal Employment Opportunity           agreement with the findings
Commission. Our review also            and recommendations, with the
found that the Office of Equal         exception of those related to the
                                       maintenance of the complaint files.

6   NLRB Semiannual report
The Acting Director also stated that    2. Manage the NLRB’s human
the Office of Equal Employment             capital;
Opportunity is committed to its         3. Implement the Next Generation
statutory mission to effectuate equal      Case Management System and
employment opportunity principles          seize opportunities to create
at the NLRB.                               more productive and efficient
We completed the Federal                   procedures and organizations;
Information Security                    4. Manage the Agency’s financial
Management Act of 2002 annual              resources;
review of information security
programs. The OIG review was            5. Manage the Agency’s procurement
primarily accomplished as part of          process to ensure compliance
the audit of the FY 2011 financial         with the Federal Acquisition
statements. On November 15, 2011,          Regulation;
the Chairman submitted reports          6. Manage the Agency’s information
from the Inspector General and the         technology resources in a manner
Chief Information Officer to OMB.          that achieves efficiency and
We issued a memorandum                     security;
identifying the Agency’s Top            7. Maintain the Agency’s institutional
Management and Performance                 knowledge; and
Challenges on October 14, 2011.         8. Implement audit findings in a
The OIG developed a list of what           timely manner.
it considers to be the most serious
management and performance              On March 1, 2012, we complied
challenges facing the NLRB. The         the provisions of the Improper
challenges are:                         Payments Information Act
                                        (IPIA), as amended by the
1. Manage in the current political      Improper Payments Elimination
   environment;                         and Recovery Act, and reported to

                                            NLRB Semiannual report          7
Congress and OMB documenting           agreement with management
our review of the Agency’s improper    on that date. Six of the seven
payment reporting in the Agency’s      recommendations have been
Performance and Accountability         implemented.
Report, and accompanying materials,    Laptop Computer Accountability
to determine if the Agency is in       and Security, OIG-AMR-59-09-
compliance with IPIA. The NLRB         01, was issued on February 27,
stated in its Performance and          2009, and we reached agreement
Accountability Report that it does     with management on that date.
not make program payments as           Management implemented three
described in IPIA and that it has no   of the six recommendations made
information to report with respect     in the report.
to erroneous program payments.
Our report to Congress and OMB         Official Time for Union Activities,
stated that we concurred with that     OIG-AMR-62-10-01, was issued on
determination.                         December 11, 2009, and we reached
                                       agreement with management on that
Audit Follow-up                        date. Management implemented one
Agreed upon actions were not           of the four recommendations made
completed within 1 year on seven       in the report.
audit reports.
                                       Financial Remedies and Other
Audit of the NLRB Fiscal Year 2006     Settlement Terms, OIG-AMR-63-
Financial Statements, OIG-F-11-        10-02, was issued on September 10,
07-01, was issued on December 14,      2010, and we reached agreement
2006, and we reached agreement         with management on that date.
with management on June 14, 2007.      The final open recommendations
The final open recommendation was      were implemented during this
implemented during this reporting      reporting period.
period.
                                       Audit of the NLRB Fiscal Year 2010
Continuity of Operations, OIG-         Financial Statements, OIG-F-15-
AMR-55-07-03, was issued on            11-01, was issued on December 15,
September 18, 2007, and we reached     2010, and we reached agreement
agreement with management              with management on March 9, 2011.
on that date. Two of the three         Three of the five recommendations
recommendations have been              remain open.
implemented.
Office of the Chief Information
Officer Procurement Functions,
OIG-AMR-57-08-01, was issued
on March 14, 2008, and we reached

8   NLRB Semiannual report
INVESTIGATIONS
PROGRAM
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate investigations relating to the programs and
   operations of the Agency. During this reporting period, the investigations
   resulted in a conviction with a sentence of confinement and $128,153
   in restitution, two separations, a counseling, and alternative discipline in
   lieu of two suspensions. Two cases were referred for prosecution.



 Case Workload      Contacts Processed
                                            Investigated two matters involving
                                            the Board. The investigative reports
Open                                        were provided to the appropriate
(10/1/2011)
              16 Received             142
                                            Congressional oversight committees.
                  Initiated                 OIG-I-467 and OIG-I-468
Initiated     7   Investigation
                                      0
                                            Investigated an allegation that a
                  Opened Case —
                              ­­­
                                            supervisor was eavesdropping on
Closed        3   Referred to         0
                  Agency                    an employee engaged in protected
                                            activity and issued a report
Open              Non-Investigative
              20 Disposition          142   substantiating the misconduct.
(3/31/2012)
                                            The supervisor was counseled.
                                            OIG-I-462
Investigative Highlights                    Investigated a senior employee for
Investigated a matter involving fraud
                                            travel card abuse. The employee
upon an outside entity and false
                                            retired after the OIG interview. The
statements by an employee. During
                                            investigation was closed during this
this reporting period, the employee
                                            reporting period. OIG-I-461
was convicted in the Eastern District
of Virginia of nine counts of wire          Initiated an investigation of an
fraud. The employee was sentenced           employee for false statements and
to a prison term of 18 months and           travel card abuse. Prosecution was
to pay restitution of $128,153.             declined. The employee resigned
OIG-I-440                                   after receiving notification of the


                                                NLRB Semiannual report            9
                                       of Information Act (FOIA)
                                       requests. Although we found that
                                       the allegation was not substantiated
                                       and closed the investigation, we
                                       determined that the FOIA process
                                       should be audited and placed the
                                       matter in the annual audit plan.
                                       OIG-I-465
                                       Hotline
                                       Employees and members of the
                                       public with information on fraud,
                                       waste, and abuse are encouraged
investigation. The investigation was   to contact the OIG. A log of calls
closed during this reporting period.   to a nationwide toll-free number
OIG-I-470                              or the office numbers and a log of
                                       mail, e-mail, and facsimile messages
Investigated an employee for travel
                                       are maintained. All information
card abuse and issued a report
                                       received, regardless of the method
substantiating the misconduct.
                                       used, is referred to as Hotline
The employee agreed to undergo
                                       contacts. Hotline contacts are
financial counseling and 2 days of
                                       analyzed to determine if further
leave without pay in lieu of a 2-day
                                       inquiry or action is warranted.
suspension as an alternative form of
discipline. OIG-I-457                  During this reporting period, the
                                       OIG received 142 Hotline contacts,
Investigated an employee for travel
                                       of which 23 were telephone calls or
card abuse and issued a report
                                       walk-ins and 119 were in writing.
substantiating the misconduct.
The employee agreed to undergo         Most Hotline contacts are from
financial counseling in lieu of a      members of the public seeking help
2-day suspension as an alternative     on an employment-related problem
form of discipline. OIG-I-458          or issues outside OIG and/or
                                       Agency jurisdiction. As appropriate,
Investigated an employee for travel
                                       the OIG refers those Hotline
card abuse and issued a report
                                       contacts to an NLRB Regional
substantiating the misconduct.
                                       Office; local, state, or Federal
Management is considering
                                       agencies; or private resources to
appropriate disciplinary action.
                                       provide assistance.
OIG-I-460
Initiated an investigation of
improper processing of Freedom

10 NLRB Semiannual report
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             • S. 1843, Representation Fairness
During this reporting period,             Restoration Act;
there were 10 legislative proposals     • S. 2168, Re-empowerment
introduced in Congress that               of Skilled and Professional
would amend the National Labor            Employee and
Relations Act or otherwise impact
                                        • Construction Tradesworkers Act;
the programs and operations of the
Agency:                                 • S. 2173, National Right-to-Work
                                          Act; and
• H.R. 3094, Workforce Democracy
  and Fairness Act;                     • S.J.Res. 36, Congressional
                                          disapproval of the representation
• H.R. 3487, Job Creation Act of
                                          election rule.
  2011;
                                        The impact of these proposals on
• H.R. 3991, Keep Employees
                                        the NLRB and its programs has
  Emails and Phones Secure Act;
                                        been the subject of extensive debate.
• H.J.Res. 103, Congressional
  disapproval of the representation     Regulations
  election rule;                        The Counsel to the Inspector
                                        General is an advisory member
• S. 1666, Employer Free Speech         of the Agency’s Rules Revision
  Act;                                  Committee that develops changes to
• S. 1720, Jobs Through Growth          the Agency’s procedural regulations.
  Act;

                                            NLRB Semiannual report 11
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United States.
   Similarly, we encourage OIG staff members to participate in Agency
   programs and activities.


Inspector General                         Government
Community                                 Accountability Office
The Inspector General is a member         The IG Act states that each
of the Council of the Inspectors          Inspector General shall give
General on Integrity and Efficiency.      particular regard to the activities
This organization consists of             of the Comptroller General of
Inspectors General at the Federal         the United States, as head of
Government’s departments and              the Government Accountability
agencies.                                 Office, with a view toward avoiding
The Assistant Inspector General           duplication and ensuring effective
for Audits, or designated auditors,       coordination and cooperation.
participated in the Federal Audit         During this reporting period,
Executive Council, Financial              we initiated an investigation
Statement Audit Network, and              based upon a referral from the
the Interagency Fraud and Risk            Government Accountability Office.
Data Mining Group. The Counsel
to the Inspector General participates
in the Council of Counsels to
Inspectors General.




12 NLRB Semiannual report
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       (10) There are no audit reports
based on the activities accomplished     issued before the commencement
during this period are required by       of the reporting period for which
section 5(a) of the IG Act to be         no management decision has been
included in the semiannual reports.      made by the end of the reporting
These are set forth below:               period.
Section 5(a)                             (11) No significant revised
(1), (2), (7) OIG did not identify       management decisions were made
significant problems, abuses             during the reporting period.
or deficiencies relating to the          (12) There are no significant
administration of programs. For the      management decisions with which
purpose of this section, we used the     I am in disagreement.
definition of significant as set forth
                                         (13) There is no information to
in the Federal Managers’ Financial
                                         report under the requirements
Integrity Act.
                                         of section 05(b) of the Federal
(3) Corrective action has been           Financial Management Improvement
completed on all significant             Act of 1996.
recommendations that were
                                         (14) (15) A peer review of the
described in the previous
                                         audit program was conducted
semiannual reports.
                                         by the National Credit Union
(4) Two cases were referred to           Administration OIG. The peer
prosecutorial authorities.               review report was issued on October
(5) No reports were made to the          31, 2011. A copy of the peer review
Board that information or assistance     report is at the appendix. There were
requested by the Inspector General       no recommendations. The OIG’s
was unreasonably refused or not          investigative program is not subject
provided.                                to the peer review requirement.
(6) A listing by subject matter is       (16) The OIG did not conduct a
located on page 14.                      peer review of any other entities
                                         during this reporting period.
(8), (9)	 One report issued during
this period had questioned costs.
See Table 1.

                                             NLRB Semiannual report 13
REPORTS BY
SUBJECT MATTER
                                                       Funds
Subject Matter           Questioned   Unsupported
                                                    To Be Put To
and Title                  Costs         Costs
                                                     Better Use

General Administration
NLRB Fiscal Year 2011    $113,120         0              0
Financial Statements
OIG-F-16-12-01
General Administration
Internal Controls
in the Office of Equal       0            0              0
Employment Opportunity
OIG-AMR-67-12-01




14 NLRB Semiannual report
Table 1. Reports With                                         Dollar Value
                                       Number of
Questioned Costs                        Reports       Questioned     Unsupported
                                                        Costs           Costs
A. For which no management
  decision has been made by the           0               0                  0
  commencement of the period
B. Which were issued during
   the reporting period
                                          1           $113,120               0

Subtotals (A+B)                           1           $113,120               0
C. For which a management decision
  was made during the reporting           1           $113,120               0
  period

(i) Dollar value of disallowed costs      1           $113,120               0
(ii) Dollar value of costs not
      disallowed
                                          0               0                  0
D. For which no management
  decision has been made by the           0               0                  0
  end of the reporting period

Reports for which no management
decision was made within six months       0               0                  0
of issuance




                                                   NLRB Semiannual report 15
Table 2. Reports with
Recommendations that                    Number of   Funds To Be Put
                                         Reports     To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0              0
   commencement of the period

B. Which were issued during the
   reporting period
                                           0              0

Subtotals (A+B)                            0              0
C. For which a management decision
   was made during the reporting           0              0
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0              0

(ii) Dollar value of recommendations
     that were not agreed to by            0              0
     management

D. For which no management decision
   has been made by the end of the         0              0
   reporting period

Reports for which no management
decision was made within six months        0              0
of issuance




16 NLRB Semiannual report
   Appendix
APPENDIX




              NLRB Semiannual report 17
DRAFT
  18 NLRB Semiannual report
DRAFT
DRAFT   NLRB Semiannual report 19
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
